No.

IN
SUPREME

THE

COURT

UNITED

OF

THE

STATES

Michael N. Kelsey, J.D.

Petitioner

vs .
The State of New York -- Respondent
PROOF OF SERVICE
_
I, ELIZABETH HARLOW, do swear or declare that on this date, Apr‘
£o i 2021, as required by the Supreme Court Rule 29 I have served the
enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS and PETITION FOR A
WRIT OF CERTIORARI on the Respondent by depositing an envelope containing
the above documents in the United States mail properly addressed to the
Respondent as identified below with first-class postage prepaid?.
The name and address of the Respondent served as representing the
State of New York is:
NYS Attorney General Letitia James
Department of Law, Capitol Building
Albany, NY 12224
I declare under penalty offperjury that the^ foregoing is true and
correct.
Executed on

Aprs 7

Of, 2021.

RECEIVED
MAY - 4 2021

